Pet. App 1a

Case: 19-14744

Date Filed: 05/01/2020

Page: 1 of 6

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 19-14744
Non-Argument Calendar
________________________
D.C. Docket Nos. 2:16-cv-00478-MHT-CSC; 2:05-cr-00042-MEF-CSC-1

TARIO STAMPS,
Petitioner - Appellant,
versus
UNITED STATES OF AMERICA,
Respondent - Appellee.
________________________
Appeal from the United States District Court
for the Middle District of Alabama
________________________
(May 1, 2020)
Before WILSON, BRANCH and ANDERSON, Circuit Judges.
PER CURIAM:
Tario Stamps appeals the district court’s denial of his 28 U.S.C. § 2255
motion. He contends that, his convictions for Hobbs Act robbery, under 18 U.S.C.

Case: 19-14744

Date Filed: 05/01/2020

Page: 2 of 6

§§ 1951(a) and 2, and armed bank robbery, under18 U.S.C. §§ 2113(d) and 2, do
not categorically qualify as predicate crimes of violence under the elements clause
of 18 U.S.C. § 924(c), and thus his § 924(c) convictions cannot be sustained. He
acknowledges that our prior precedent says otherwise, but that he raises his
arguments to preserve them because relying on published opinions in the context
of applications to file a second or successive § 2255 as binding precedent outside
that context is inappropriate. The government has moved for summary affirmance.
Summary disposition is appropriate either where time is of the essence, such
as “situations where important public policy issues are involved or those where
rights delayed are rights denied,” or where “the position of one of the parties is
clearly right as a matter of law so that there can be no substantial question as to the
outcome of the case, or where, as is more frequently the case, the appeal is
frivolous.” Groendyke Transp., Inc. v. Davis, 406 F.2d 1158, 1162 (5th Cir. 1969).
In reviewing a denial of a motion to vacate under § 2255, we review the
district court’s legal conclusions de novo and findings of fact for clear error.
Stoufflet v. United States, 757 F.3d 1236, 1239 (11th Cir. 2014). Under our priorpanel-precedent rule, a panel is bound by a prior panel’s decision until overruled
by the Supreme Court or by this Court en banc. United States v. Steele, 147 F.3d
1316, 1317-18 (11th Cir. 1998). There is no exception to this rule based upon an
overlooked reason or a perceived defect in the prior panel’s reasoning or analysis
2

Case: 19-14744

Date Filed: 05/01/2020

Page: 3 of 6

of the law in existence at the time. United States v. Kaley, 579 F.3d 1246, 1259-60
(11th Cir. 2009). Additionally, “our prior-panel-precedent rule applies with equal
force as to prior panel decisions published in the context of applications to file
second or successive petitions.” United States v. St. Hubert, 909 F.3d 335, 345
(11th Cir. 2018) (quotation omitted) (citing In re Lambrix, 776 F.3d 789, 794 (11th
Cir. 2015)), pet. for cert. filed July 18, 2019 (U.S. No. 19-5267).
Section 924(c) of Title 18 of the United States Code criminalizes the use or
carrying of a firearm in furtherance of a crime of violence or drug-trafficking
crime. 18 U.S.C. § 924(c). “Crime of violence” is defined as a felony offense that
either
(A) has as an element the use, attempted use, or threatened use of
physical force against the person or property of another, or (B) that by
its nature, involves a substantial risk that physical force against the
person or property of another may be used in the course of committing
the offense.
(B) that by its nature, involves a substantial risk that physical force
against the person or property of another may be used in the course of
committing the offense.
Id. § 924(c)(3)(A)-(B). Subsection (A) is known as the “elements clause,” while
subsection (B) is known as the “residual clause.” St. Hubert, 909 F.3d at 345.
In Davis v. United States, 139 S. Ct. 2319 (2019), the Supreme Court
extended its holdings in Johnson v. United States, 135 S. Ct. 2551 (2015) and
Sessions v. Dimaya, 138 S. Ct. 1204 (2018), to § 924(c) and held that
3

Case: 19-14744

Date Filed: 05/01/2020

Page: 4 of 6

§ 924(c)(3)(B)’s residual clause, like the residual clauses in the Armed Career
Criminal Act and 18 U.S.C. § 16(b), is unconstitutionally vague. Davis, 139 S. Ct.
at 2324-25, 2336. The Court resolved a circuit split on the issue, rejecting the
position that § 924(c)(3)(B)’s residual clause could remain constitutional if read to
encompass a caseဩspecific, conduct-based approach, rather than a categorical
approach. Id. at 2325 & n.2, 2332-33. The Court in Davis emphasized that there
was no “material difference” between the language or scope of § 924(c)(3)(B) and
the residual clauses struck down in Johnson and Dimaya and, therefore, concluded
that § 924(c)(3)(B) was unconstitutional for the same reasons. Id. at 2326, 2336.
Previously, in the context of an application for leave to file a second or
successive § 2255 motion to vacate, we held that a conviction for Hobbs Act
robbery “clearly qualifies as a crime of violence” under the elements clause of §
924(c)(3)(A) because it required the use, attempted use, or threatened use of force
against the person or property of another. In re Saint Fleur, 824 F.3d 1337, 134041 (11th Cir. 2016). In St. Hubert, we held that, pursuant to the elements clause in
§ 924(c) and our prior precedent in Saint Fleur, Hobbs Act robbery was a crime of
violence because a conviction for that required actual or threatened force, or
violence, or fear of injury, immediate or future, to person or property, and noted
that § 924(c)(3)(A) referred to the use, attempted use, or threatened use of physical
force against person or property. St. Hubert, 909 F.3d at 348.
4

Case: 19-14744

Date Filed: 05/01/2020

Page: 5 of 6

Also, in the context of an application for leave to file a second or successive
§2255 motion to vacate, we held that armed bank robbery categorically qualifies as
a crime of violence under § 924(c)’s elements clause. In re Hines, 824 F.3d 1334,
1337 (11th Cir. 2016). Additionally, we have further held that where the
companion substantive conviction qualifies as a crime of violence under the useof-force clause in § 924(c), a conviction for aiding and abetting the companion
substantive conviction equally qualifies as a crime of violence under the use-offorce clause. In re Colon, 826 F.3d 1301, 1305 (11th Cir. 2016).
We grant the government’s motion for summary affirmance. As Stamps
concedes, we have previously held that Hobbs Act robbery and armed bank
robbery qualify as predicate crimes of violence under the elements clause of §
924(c). See In re Saint Fleur, 824 F.3d at 1340-41; St. Hubert, 909 F.3d at 348; In
re Hines, 824 F.3d at 1337. Additionally, it does not matter whether Stamps was
convicted as an aider or abettor or a principal, because, as we have also previously
held, a conviction for aiding and abetting the companion substantive offense
equally qualifies as a crime of violence under § 924(c)’s use-of-force clause. In re
Colon, 826 F.3d at 1305. Even if we were to question the reasoning of these prior
GHFLVLRQVWKHSULRUဩSDQHOဩSUHFHGHQWUXOHSUHYHQWVus from disregarding the
previous panel’s decision absent a decision from the Supreme Court or this Court
en banc, even if such prior precedent was rendered in the context of an application
5

Case: 19-14744

Date Filed: 05/01/2020

Page: 6 of 6

to file a second or successive § 2255 motion. See Kaley, 579 F.3d at 1259-60; St.
Hubert, 909 F.3d at 345.
Thus, as the government’s position is clearly correct as a matter of law, we
GRANT the government’s motion for summary affirmance. See Davis, 406 F.2d
at 1162. Accordingly, we DENY the government’s motion to stay the briefing
schedule as moot.

6

Case: 19-14744

Date Filed: 05/01/2020

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303

David J. Smith
Clerk of Court

For rules and forms visit
www.ca11.uscourts.gov

May 01, 2020
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 19-14744-DD
Case Style: Tario Stamps v. USA
District Court Docket No: 2:16-cv-00478-MHT-CSC
Secondary Case Number: 2:05-cr-00042-MEF-CSC-1
This Court requires all counsel to file documents electronically using the Electronic Case Files ("ECF") system,
unless exempted for good cause. Non-incarcerated pro se parties are permitted to use the ECF system by
registering for an account at www.pacer.gov. Information and training materials related to electronic filing, are
available at www.ca11.uscourts.gov. Enclosed is a copy of the court's decision filed today in this appeal. Judgment has
this day been entered pursuant to FRAP 36. The court's mandate will issue at a later date in accordance with FRAP 41(b).
The time for filing a petition for rehearing is governed by 11th Cir. R. 40-3, and the time for filing a petition for rehearing
en banc is governed by 11th Cir. R. 35-2. Except as otherwise provided by FRAP 25(a) for inmate filings, a petition for
rehearing or for rehearing en banc is timely only if received in the clerk's office within the time specified in the rules.
Costs are governed by FRAP 39 and 11th Cir.R. 39-1. The timing, format, and content of a motion for attorney's fees and
an objection thereto is governed by 11th Cir. R. 39-2 and 39-3.
Please note that a petition for rehearing en banc must include in the Certificate of Interested Persons a complete list of all
persons and entities listed on all certificates previously filed by any party in the appeal. See 11th Cir. R. 26.1-1. In
addition, a copy of the opinion sought to be reheard must be included in any petition for rehearing or petition for
rehearing en banc. See 11th Cir. R. 35-5(k) and 40-1 .
Counsel appointed under the Criminal Justice Act (CJA) must submit a voucher claiming compensation for time spent on
the appeal no later than 60 days after either issuance of mandate or filing with the U.S. Supreme Court of a petition for
writ of certiorari (whichever is later) via the eVoucher system. Please contact the CJA Team at (404) 335-6167 or
cja_evoucher@ca11.uscourts.gov for questions regarding CJA vouchers or the eVoucher system.
For questions concerning the issuance of the decision of this court, please call the number referenced in the signature
block below. For all other questions, please call Bradly Wallace Holland, DD at 404-335-6181.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Jeff R. Patch
Phone #: 404-335-6151
OPIN-1 Ntc of Issuance of Opinion

Case 2:16-cv-00478-MHT-CSC Document 40 Filed 09/25/19 Page 1 of 2

Pet. App. 1b
IN THE DISTRICT COURT OF THE UNITED STATES FOR THE
MIDDLE DISTRICT OF ALABAMA, NORTHERN DIVISION

TARIO STAMPS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

)
)
)
)
)
)
)
)
)

CIVIL ACTION NO.
2:16cv478-MHT
(WO)

OPINION
Pursuant to 28 U.S.C. § 2255, petitioner, a federal
inmate, filed this lawsuit seeking habeas relief.

This

lawsuit is now before the court on the recommendation
of the United States Magistrate Judge that the § 2255
petition

be

denied.

Also

before

the

court

petitioner’s objections to the recommendation.

are
After

an independent and de novo review of the record, the
court concludes that petitioner’s objections should be
overruled
adopted.

and

the

magistrate

judge’s

recommendation

Case 2:16-cv-00478-MHT-CSC Document 40 Filed 09/25/19 Page 2 of 2

An appropriate judgment will be entered.
DONE, this the 25th day of September, 2019.
/s/ Myron H. Thompson
UNITED STATES DISTRICT JUDGE

Case 2:16-cv-00478-MHT-CSC Document 45 Filed 11/27/19 Page 1 of 1

Pet. App. 1c
IN THE DISTRICT COURT OF THE UNITED STATES FOR THE
MIDDLE DISTRICT OF ALABAMA, NORTHERN DIVISION

TARIO STAMPS,

)
)
)
)
)
)
)
)
)

Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

CIVIL ACTION NO.
2:16cv478-MHT

ORDER
It

is

ORDERED

that

petitioner's

motion

for

certificate of appealability (doc. no. 42) is granted
as

to

U.S.C.

the

following

§ 924(c)

issue:

convictions

whether
are

petitioner’s

18

unconstitutional

in

light of Johnson v. United States, 135 S. Ct. 2551
(2015) and/or United States v. Davis, 139 S. Ct. 2319
(2019).
DONE, this the 26th day of November, 2019.
/s/ Myron H. Thompson
UNITED STATES DISTRICT JUDGE

Case 2:16-cv-00478-MHT-CSC Document 24 Filed 07/20/18 Page 1 of 7

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF ALABAMA
NORTHERN DIVISION

Pet. App 1d
TARIO STAMPS,

Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

)
)
)
)
)
)
)
)
)

Civil Action No. 2:16cv478-MHT
[WO]

RECOMMENDATION OF THE MAGISTRATE JUDGE
Before the court is federal inmate Tario Stamps’ motion under 28 U.S.C. § 2255 to
vacate, set aside, or correct sentence. Doc. # 1.1
I. INTRODUCTION
On August 9, 2005, a jury found Stamps guilty of committing the following nine
crimes: three counts of aiding and abetting armed bank robbery, in violation of 18 U.S.C.
§ 2113(d) (Counts 1, 3, and 7); one count of aiding and abetting Hobbs Act robbery, in
violation of 18 U.S.C. § 1951 (Count 5); four counts of brandishing a firearm during a
crime of violence, in violation of 18 U.S.C. § 924(c)(1)(A)(ii) (Counts 2, 4, 6, and 8); and
one count of retaliating against a witness, in violation of 18 U.S.C. § 1513(b)(2) (Count 9).
The three armed bank robberies and the Hobbs Act robbery served as the predicate “crimes
of violence” for Stamps’ four § 924(c) convictions. See Doc. # 12-1 at 2-5.

1

References to “Doc(s). #” are to the document numbers of the pleadings, motions, and other materials in
the court file, as compiled and designated on the docket sheet by the Clerk of Court. Pinpoint citations are
to the page of the electronically filed document in the court’s CM/ECF filing system, which may not
correspond to pagination on the “hard copy” of the document presented for filing.

Case 2:16-cv-00478-MHT-CSC Document 24 Filed 07/20/18 Page 2 of 7

After a sentencing hearing on November 1, 2005, the district court sentenced
Stamps to a total of 96 years’ (1,152 months) imprisonment. See Doc. # 12-4 at 4. Stamps’
term of imprisonment included the consecutive minimum seven-year (84 month) term of
imprisonment on the first § 924(c)(1)(A)(ii) conviction, in which the jury found that a
firearm was brandished, and consecutive 25-year (300 month) sentences on the three
remaining § 924(c) convictions. See 18 U.S.C. § 924(c)(1)(A)(ii), (c)(1)(C).
Stamps appealed, and on November 28, 2006, the Eleventh Circuit affirmed his
convictions and sentence. United States v. Stamps, 201 F. App’x 759 (11th Cir. 2006).
Over nine years later, on June 14, 2016, Stamps filed this § 2255 motion arguing
that, in light of the Supreme Court’s decision in Johnson v. United States, 135 S. Ct. 2551
(2015), his armed bank robbery and Hobbs Act robbery convictions cannot qualify as
predicate “crimes of violence” for his § 924(c) convictions, and therefore his convictions
and sentence under § 924(c) are invalid. See Docs. # 1 & 2.
For the reasons that follow, the court finds that Stamps’ § 2255 motion should be
denied and this case dismissed with prejudice.
II. DISCUSSION
Title 18 § 924(c), United States Code, provides in part that a defendant who uses or
carries a firearm “during and in relation to any crime of violence or drug trafficking crime,”
or possesses a firearm in furtherance of such crimes, shall, in addition to the punishment

2

Case 2:16-cv-00478-MHT-CSC Document 24 Filed 07/20/18 Page 3 of 7

provided for such crime of violence or drug trafficking crime, be sentenced to a separate
and consecutive term of imprisonment.2
For purposes of § 924(c), a “crime of violence” is defined as a felony offense that:
(A)

has as an element the use, attempted use, or threatened use of physical
force against the person or property of another, or

(B)

… by its nature, involves a substantial risk that physical force against
the person or property of another may be used in the course of
committing the offense.

18 U.S.C. § 924(c)(3). Subsection (A) of § 924(c)(3) is referred to as the “use-of-force
clause,” and subsection (B) is referred to as the “§ 924(c)(3)(B) residual clause.” See In re
Saint Fleur, 824 F.3d 1337, 1339 (11th Cir. 2016).
A separate but similar sentencing provision, the Armed Career Criminal Act
(“ACCA”), 18 U.S.C. § 924(e),3 defines the term “violent felony” as any crime punishable
by a term of imprisonment exceeding one year that:
(i) has as an element the use, attempted use, or threatened use of physical
force against the person of another; or
(ii) is burglary, arson, or extortion, involves use of explosives; or otherwise
involves conduct that presents a serious potential risk of physical injury to
another.

2

And if, as here, the firearm is brandished during the crime, the consecutive sentence shall be “not less than
7 years.” 18 U.S.C. § 924(c)(1)(A)(ii). Further, if, as here, there is a second or subsequent conviction under
§ 924(c), each consecutive sentence shall be “not less than 25 years.” 18 U.S.C. § 924(c)(1)(C)(i).

3

Under the ACCA, a defendant who violates 18 U.S.C. § 922(g) (by possessing a firearm as a convicted
felon) and has three prior convictions for a “violent felony” or a serious drug offense is subject to a
mandatory minimum sentence of 15 years’ imprisonment. 18 U.S.C. § 924(e)(1).

3

Case 2:16-cv-00478-MHT-CSC Document 24 Filed 07/20/18 Page 4 of 7

18 U.S.C. § 924(e)(2)(B). The first prong of this definition, § 924(e)(2)(B)(i), is known as
the “elements clause.” See In re Sams, 830 F.3d 1234 (11th Cir. 2016). The second prong,
§ 924(e)(2)(B)(ii), is split into two clauses. The first part, listing burglary, arson, extortion,
or an offense involving the use of explosives, is known as the “enumerated offenses
clause,” and the second part is known as the “residual clause.” Id.
In Johnson v. United States, decided on June 26, 2015, the United States Supreme
Court held that the residual clause of the ACCA is unconstitutionally vague. See 135 S.Ct.
at 2557–59, 2563. Based on that holding, the Court concluded that “imposing an increased
[ACCA] sentence under the residual clause . . . violates the Constitution’s guarantee of due
process.” Id. at 2563. The Court also stated, “Today’s decision does not call into question
application of the [ACCA] to the four enumerated offenses, or the remainder of the
[ACCA’s] definition of a violent felony.” Id. at 2563.
In April 2016, the Supreme Court held that Johnson announced a new substantive
rule that applies retroactively to cases on collateral review. Welch v. United States, 136
S.Ct. 1257, 1264–65 (2016). In the wake of Johnson and Welch, inmates sentenced as
armed career criminals based on prior convictions deemed “violent felonies” under the
ACCA’s residual clause could challenge their ACCA sentences through § 2255 motions.
Johnson did not address the definition of a crime of violence found in 18 U.S.C. §
924(c). However, Stamps argues that the holding in Johnson applies to § 924(c); that
Johnson invalidates the “924(c)(3)(B) residual clause” (whose language is similar to that
of the ACCA’s unconstitutionally vague residual clause); and that neither 18 U.S.C. §
2113(d) armed bank robbery nor Hobbs Act robbery meets the definition of a crime of
4

Case 2:16-cv-00478-MHT-CSC Document 24 Filed 07/20/18 Page 5 of 7

violence under the “use-of-force clause” in § 924(c)(3)(A). Thus he argues that his § 924(c)
convictions, which relied on his armed bank robberies and Hobbs Act robbery as the
predicate “crimes of violence,” cannot stand.
Whether the holding in Johnson extends to the residual clause in § 924(c)(3)(B) is
currently an open question in the Eleventh Circuit. Until recently, that question seemed to
be settled by Ovalles v. United States, 861 F.3d 1257 (11th Cir. 2017), where the Eleventh
Circuit held that Johnson did not apply to § 924(c) and concluded expressly that “Johnson’s
void-for-vagueness ruling does not apply to or invalidate the ‘risk-of-force’ clause [i.e., the
residual clause] in § 924(c)(3)(B).” 861 F.3d at 1265. On May 15, 2018, however, the
Eleventh Circuit vacated its panel opinion in Ovalles and ordered that the case be reheard
en banc. Ovalles v. United States, 889 F.3d 1259 (11th Cir. 2018); see Eleventh Circuit
General Order No. 43, May 17, 2018.
That said, the Eleventh Circuit has stated: “Even assuming that Johnson invalidated
§ 924(c)’s residual clause [§ 924(c)(3)(B)], that conclusion would not assist [a defendant
whose] underlying conviction on which his § 924(c) conviction was based . . . [met] the
requirements that the force clause in § 924(c)(3)(A) sets out for a qualifying underlying
offense.” In re Smith, 829 F.3d 1276, 1280 (11th Cir. 2016). The Eleventh Circuit has
held that 18 U.S.C. § 2113(d) armed bank robbery is categorically a crime of violence
under § 924(c)(3)(A)’s use-of-force clause. Sams, 830 F.3d at 1239. The Eleventh Circuit
has also held that Hobbs Act robbery is categorically a crime of violence under §
924(c)(3)(A)’s use-of-force clause. Saint Fleur, 824 F.3d at 1340–41. The Eleventh
Circuit has further held that where the companion substantive conviction qualifies as a
5

Case 2:16-cv-00478-MHT-CSC Document 24 Filed 07/20/18 Page 6 of 7

crime of violence under the use-of-force clause in § 924(c)(3)(A), a conviction for aiding
and abetting the companion substantive conviction equally qualifies as a crime of violence
under the use-of-force clause. In re Colon, 826 F.3d 1301, 1305 (11th Cir. 2016) (holding
aiding and abetting Hobbs Act robbery was crime of violence under 924(c)(3)(A)’s use-offorce clause clause because companion substantive conviction for Hobbs Act robbery was
a crime of violence under the use-of-force clause).
Because binding Eleventh Circuit precedent establishes that § 2113(d) armed bank
robbery and Hobbs Act robbery are categorically crimes of violence under § 924(c)(3)(A)’s
use-of-force clause—and because a conviction for aiding and abetting the companion
substantive conviction equally qualifies as a crime of violence under the use-of-force
clause—Stamps’ convictions and sentences under § 924(c) are still valid following
Johnson, and Stamps’ instant claim is foreclosed. And because Stamps’Johnson claim
lacks merit, there is no need for the court to address the government’s other arguments.
III. CONCLUSION
Accordingly, it is the RECOMMENDATION of the Magistrate Judge that the 28
U.S.C. § 2255 motion be DENIED and his case DISMISSED WITH PREJUDICE.
It is further
ORDERED that the parties shall file any objections to this Recommendation or
before August 3, 2018. A party must specifically identify the factual findings and legal
conclusions in the Recommendation to which objection is made; frivolous, conclusive, or
general objections will not be considered.

Failure to file written objections to the

Magistrate Judge’s findings and recommendations in accordance with the provisions of 28
6

Case 2:16-cv-00478-MHT-CSC Document 24 Filed 07/20/18 Page 7 of 7

U.S.C. § 636(b)(1) will bar a party from a de novo determination by the District Court of
legal and factual issues covered in the Recommendation and waives the right of the party
to challenge on appeal the District Court’s order based on unobjected-to factual and legal
conclusions accepted or adopted by the District Court except upon grounds of plain error
or manifest injustice. Nettles v. Wainwright, 677 F.2d 404 (5th Cir. 1982); 11th Cir. R. 31. See Stein v. Lanning Securities, Inc., 667 F.2d 33 (11th Cir. 1982). See also Bonner v.
City of Prichard, 661 F.2d 1206 (11th Cir. 1981) (en banc).
DONE this 20th day of July, 2018.

/s/ Charles S. Coody
CHARLES S. COODY
UNITED STATES MAGISTRATE JUDGE

7

